                       AUDIT OF THE ELIGmILITY OF 15 

                    HUBZONE COMPANIES AND A REVIEW OF 

                        THE HUBZONE EMPOWERMENT 

                     CONTRACTING PROGRAM'S INTERNAL 

                                 CONTROLS 


                           AUDIT REPORT NUMBER 3-05 


                                  JANUARY 22, 2003




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
ofInspector General.
  ~
          B1J8

 ~
                                 u.s. SMALL BUSINESS ADMINISTRATION
 •                   •               OFFICE OF INSPECTOR GENERAL
 .,. '4'/N/h',,~~~                        Washingt!lR, DC 20416


                                                                           AUDIT REPORT
                                                                    Issue Date: January 22, 2003
                                                                    Report Number: 3-05

TO:                      Lloyd A. Blanchard
                         Chief Operating Officer

                         Michael P. McHale
                         AU~i:jA~Or HUBZone Empowennent

FROM:                    ~.         Seabrooks       .
                         Assistant Inspector General for Auditing

SUBJECT:                 Audit Report on the Eligibility of 15 HUBZone Companies and a Review of the
                         HUBZone Empowerment Contracting Program's Internal Controls

        The Office of Inspector General (OIG) completed an audit after a complaint was received
by SBA's Office ofHUBZone Empowerment about a relatively large number (15) of certified
HUBZone companies operating in a small census tract in Idaho Falls, Idaho. The complainant
expressed concern that some of those companies may not be qualified to participate in the
program. To address questions that were subsequently raised over program vulnerability to
contracting fraud, we expanded the audit to include detennining whether the internal controls
over the selection and monitoring of participating companies were adequate to ensure that only
eligible firms are certified and remain certified. This report presents the results of the audit.


                                                   BACKGROUND

        The Historically Underntilized Business Zone (HUBZone) Act of 1997 created the
HUBZone Empowerment Contracting Program to provide Federal contracting assistance for
qualified small business concerns located on Indian reservations and in metropolitan area census
tracts or non-metropolitan counties where high unemployment rates or low-income levels
predominate. The program's intent is to increase employment opportunities, investment, and
economic development in those areas.

        A small business concern located in a designated HUBZone is eligible for HUBZone
contracting benefits, including sole-source, price evaluation preference, and set-asides, if SBA
certifies that it meets the following four criteria:
        (1) 	 the company must be small by SBA size standards;
        (2) 	 the company must be exclusively owned and controlled by U.S. citizens;
        (3) 	 the company's principal office must be located in a HUBZone; and
        (4) 	 at least 35% ofthe company's full-time/full-time equivalent employees must reside
              in a HUBZone.

        According to program officials, the List of Qualified HUBZone Small Business Concerns
maintained on SBA's World Wide Web site contained the names and addresses of7,555 certified
firms as of January 21,2003. Data from the Federal Procurement Data System (FPDS) showed
that 2,415 government contracts, valued at $425,059,000, were awarded to certified HUBZone
companies as of March 30, 2002. A General Accounting Office (GAO) report issued in October
2001, "HUBZone Program Suffers From Reporting and Implementation Difficulties" (GAO-02­
57), concluded that FPDS data on contracts for fiscal year 2000 were grossly inaccurate and
could be offby hundreds of millions of dollars. The inaccuracies resulted from data entry errors
and insufficient guidance to contracting officers on how to report agency data.

         Companies can apply electronically for certification and inclusion on the List of
Qualified HUBZone Small Business Concerns. The initial determination for HUBZone
eligibility, while based on a sophisticated electronic application, does not require the applicant to
provide validating documentation such as a copy of a business owner's birth certificate as proof
of U.S. citizenship or a copy of a lease agreement to verify the business concern's principal
office location is in a qualified HUBZone.

        The Office ofHUBZone Empowerment developed a validation process, called a program
examination, to verify that approved firms meet the four criteria for HUBZone certification.
Program examinations were first conducted in Fiscal Year (FY) 2001 by SBA district office
personnel. Limited staff resources permitted a review that year of only 142 (about four percent)
of the approximately 4,000 certified firms participating in the program as of September 30,2001.
For FY 2002, no program examinations were conducted due to resource constraints.


                  AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

         The audit objectives were to determine (1) if the 15 subject companies met the four
criteria for participation in the HUBZone program, and (2) whether the program office's internal
controls over the selection and monitoring of participating companies were adequate to ensure
that only eligible firms are certified and remain certified.

        The scope of the audit was limited to the 15 certified companies operating in the Idaho
Falls, Idaho HUBZone as of March 14, 2002, and a review of the HUBZone program's internal
controls. Our scope did not include analysis offederal contracting data, however, since the GAO
found fiscal year 2000 data to be inaccurate and unreliable. Travel costs precluded our visiting
the Idaho companies to personally inspect their facilities.

      Our audit methodology included reviewing program regulations and materials from
SBA's World Wide Web site on "HUBZone Empowerment Contracting Opportunities,"



                                                  2

examining PRO-Net firm profiles and copies of the on-line applications for the 15 subject
companies, searching Federal database records for any HUBZone contracts that might have been
awarded to the companies, and reviewing requested documentation from the companies to verify
that they met the four criteria for program participation. Specifically, we requested the following
information:

   • 	 Size standard: copies of company federal income tax returns for the past three yearS.
       When the size standard was based on number of employees, we used payroll records for
       verification.

   • 	 U.S. citizenship requirement: a copy of either a voter registration card, passport, birth
       certificate, or naturalization papers for each company owner.

   • 	 Principal office criterion: the address of each company's principal office, and all other
       offices, as well as a copy of the lease agreement(s), and the names of all employees, by
       office.

   • 	 35% HUBZone residency requirement: a copy of the company's most recent payroll
       record that showed a listing of all employees and the residential address for each
       employee. Ifthe payroll records did not include employee addresses, we asked for copies
       of Form W2s foneach employee residing in a HUBZone in addition to the company's
       most recent payroll record.

        To determine if internal controls were adequate to ensure that only eligible companies
were on the list of certified firms, we examined the on-line application and program examination
processes to determine whether they effectively validate that each concern meets the four
certification criteria. We also interviewed officials of the Office of HUBZone Empowerment to
determine if they had conducted a risk assessment or internal control assessment for the program
and to gather their input on the effectiveness of controls currently in place and how such controls
could be improved. Finally, we examined program office budget materials to determine if
resources were sufficient to provide proper oversight of the certified firms.

       We performed fieldwork from April, 2002 to January, 2003. The audit was conducted in
accordance with Government Auditing Standards.


                                       AUDIT RESULTS

        We found that over two-thirds of the 15 subject companies were either not in compliance
with HUBZone eligibility requirements or had presumably gone out of business. We also found
that the Office of HUBZone Empowerment's internal controls were inadequate to ensure that
only eligible firms are certified and remain certified. Therefore, there is little assurance that the
program will provide increased employment, investment and economic development for
depressed areas. Since ineligible companies could receive HUBZone contracts, the program is
also vulnerable to federal contracting fraud.



                                                 3

"




    Most Of The 15 Idaho Falls HUBZone Companies Were Ineligible

             Eleven of the 15 subject companies either did not comply with one of the four HUBZone
    eligibility requirements or could not be contacted by phone or mail. Specifically:

       • 	 Seven companies did not meet the 35% HUBZone residency requirement.

       • 	 Three companies did not respond to our inquiries, and had inactive mailing addresses and
           phone numbers. We presumed they have gone out of business.

       • 	 One company relocated out of the Idaho Falls HUBZone to a neighboring town that is not
           in a HUBZone.

    Controls Were Not Adequate To Ensure HUBZone Companies Are Eligible

             The control environment for the Office of HUBZone Empowerment is positive and
    supportive. Program officials recognize the need for controls, are aware of potential risks to
    program integrity, and express interest in working cooperatively with OIG auditors and
    management to assure that only qualified companies receive benefits and to prevent fraud.
    Current controls, however, are inadequate to provide reasonable assurance that the 7,555 firms
    on SBA's List of Qualified HUBZone Small Business Concerns meet all eligibility requirements.
    Company qualifications as disclosed on the application for HUBZone certification are typically
    not verified by SBA unless a program examination of that company is later conducted. Over
    one-third of the firms receiving program examinations in FY 2001 and over two-thirds of the
    firms included in this audit were found to be ineligible. Given the 7,555 certified firms
    participating in the program, and the small number for which examinations have been conducted,
    it is possible that some firms may never have their qualifications verified unless the number of
    firms reviewed is significantly increased.

             As of August 31, 2002, the program office had a permanent, full-time staff of seven
    employees (including two departmental managers) and has had to depend on other SBA staffing
    resources, particularly in the district offices, to verify company qualifications. Employees in the
    Office of HUB Zone Empowerment are involved in other program administration tasks such as
    reviewing applications for HUBZone certification, assisting companies in obtaining contracts,
    and handling protests to contract awards, according to program officials. Staff from district
    offices performed a limited number of program exams in FY 200 I, but the Office ofHUBZone
    Empowerment did not reimburse the district offices for staff salaries and was only able to budget
    minimal funds for travel to accomplish this task. Also, conducting program exams is not
    included in district office goals, which could make support for such reviews even more difficult
    to obtain. Given the program's budget and staff resources, it is not possible to verify eligibility
    for all the 7,555 companies currently certified nationwide. The results from the limited number
    of program exams and audits suggest that greater verification of HUBZone company
    qualifications is necessary.

           Program exams conducted in FY 2001 found that over one-third ofthe 142 companies
    reviewed were ineligible for continued program participation for one reason or another. Over



                                                     4
two-thirds of the 15 subject companies in this audit were similarly found to be ineligible. These
results are not based on a randomly selected statistically valid sample and rnay be greater than
the percentage of ineligible firms participating in the HUBZone program overall, since both the
program exams and the audit focused on specific firms for which questions had been raised
about their qualifications. The 2001 program exams specifically targeted firms in the service and
construction industries to test compliance with regulatory amendments enacted in February, 2001
that pertained to firms in the service and construction industries. Moreover, this audit was
conducted in response to a complaint about companies in a specific HUBZone.

         The results of the program exams and our audit nonetheless suggest the need for greater
verification of company qualifications to ensure program integrity and prevent contracting fraud.
Interviews with officials from the Office ofHUBZone Empowennent indicate that the program
is, in fact, vulnerable to such fraud since it is possible for ineligible companies to receive
HUBZone contracts, thus diminishing contracting money available for truly qualified firms.
Furthennore, having ineligible companies on SBA's List of Qualified Small Business Concerns
inflates the success of the program by overstating the number of eligible firms.

       We also found that the program office did not have the administrative resources
necessary to decertify firms and remove them from SBA's list on a timely basis after such firms
had notified SBA that they no longer met program eligibility requirements. Owners of two of
the audited companies stated they had notified the program office several months prior to our
request for infonnation that their firms no longer met one or more of the certification criteria,
and yet no action was taken by the Office ofHUBZone Empowennent to decertify those firms.
Program officials acknowledged that this lack of follow-through was due to resource constraints
and a backlog in processing company decertifications, which further overstates the number of
HUBZone finns supposedly qualified for federal contracting benefits.

        According to program officials, the number of certified HUBZone companies has
increased six-fold over less than a three-year period, from approximately 1,000 as of March 31,
2000 to over 6,000 as of August 2, 2002, and yet annual funding for the program has remained at
$2 million or less over that period. Since SBA is presently operating under a continuing
resolution, the program has not yet received its funding level for FY 2003. Increased funding
could be used to provide greater program oversight, generally, and specifically to conduct more
program exams or implement an alternative process for verification of company qualifications.

       Program officials in the Office of HUBZone Empowerment are developing alternative
proposals, subject to budget availability. One proposal may be to hire additional staff, while
another would consider a possible outsourcing of the office's program examination
responsibilities. While we are not recommending a specific plan to improve program oversight
and reduce the potential for contracting fraud, we believe that additional oversight is needed.

        During the audit, the findings were brought to management's attention. Upon being
notified of the results of this audit, management removed nine of the Idaho Falls companies from
the List of Qualified HUBZone Small Business Concerns. According to program officials, two
other companies will be monitored to ensure that they take immediate steps to comply with
certification requirements, or those companies will be mailed notices of proposed decertification.



                                                5

                                  RECOMMENDATIONS 


1. 	   We recommend that the Associate Administrator for HUBZone Empowerment either
       decertify the remaining two companies found to be ineligible for continued program
       participation and remove them from the List of Qualified HUBZone Small Business
       Concerns maintained on SBA's World Wide Web site, or ensure that they are brought
       into compliance with the eligibility requirements.

2. 	   We recommend that the Associate Administrator for HUBZone Empowerment develop a
       plan to conduct an adequate number of program examinations each year to protect
       program integrity and lessen opportunities for contracting fraud.

3. 	   We recommend that the Chief Operating Officer approve or modify the plan as
       developed for Recommendation 2 and provide the budget and/or staff resources
       necessary to implement that plan.


SBA MANAGEMENT'S COMMENTS

       SBA's Associate Administrator for HUBZone Empowerment and Chief Operating
Officer agreed with the recommendations. Text changes suggested by SBA's Associate
Administrator for HUBZone Empowerment were also incorporated. Their responses are
included as Attachments 1 and 2.



                                       * * * * *

       The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by
your office in accordance with existing Agency procedures for audit foHow-up and
resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
"Recommendation Action Sheet," and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       Should you or your staffhave any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7204.

Attachments




                                              6

                                                                                                 Attachment 1

                      u.s. SMALL BUSINESS ADi\IINISTRATION
                                   WASIII:-;CTON. D.C. 20416




MEMORANDUM

DATE: January 13,2003

TO: Robert G. Seabrooks, Assistant Inspector General for Adults

THRU: Darryl Hairston Deputy Administrator for GCIBD  ~
                ~7~""J                               !.,y.'.
FROM: Michael M~«aie, Associate Administrator for HUBZone Program

SUBJECT: HUBZone Office Response to draft audit

The overall reaction by the Office of the HUBZone Program to the draft text of the audit
is positive. You and your staffhave identified the major challenges facing the HUBZone
Program, especially in the area of continuing eligibility and program examinations.

With regard to particular text changes, we would like to see the following incorporated
before the draft is finalized: On page 4, please increase the number of firms referenced in
the second to last paragraph as, "Given the over 7,000 certified firms ..." Next on page 6,
to properly reflect the HUBZone officials comments, the first full paragraph should read,
Program officials in the Office of HUBZone are developing alternative proposals, subject
to budget availability; one proposal may be to hire additional staff. The next proposal
would consider a possible outsourcing of the office's program examination
responsibilities.

As recommended, we are initiating communication with the two firms included in your
review that still require some measure of action before the identified issues can be
resolved. The communication will either confirm their compliance with the HUBZone
eligibility requirements or result in de-certification as was done with the nine other firms
considered non-cornpliant.

 We appreciate working with you and your OIG staff on this collaborative effort to
 maintain the integrity of the HUBZone Program.




      SBA IS AN EQUAL OPPORTUNITY EMPLOYER AND PROVIDER
                           rr.:e·a'Ft~r::~:;: F'1:;·I....   teJ
                                                            ~
                                                                  F,,";:t:c:'I Rr.)~\t: P.;oer
                                                                          Attachment 2

              U.S. SMALL BUSINESS 'ADMINISTRATION
                     WASHINGTON, D.C. 20416




DATE:         January 12, 2003

TO:           Robert Seabroo~
              Assistant Inspector General for Auditing
                                        . <C5
FROM:         Lloyd A. Blanchard   t·t:
              Chief Operating Officer

SUBJECT:      Remarks on the IG draft audit report on the HUBZone Empowerment
              Program

cc:           Michael P. McHale
              AAlHUBZone Empowerment


Thank you for providing me with the opportunity to review and comment on the
discussion draft of the IG audit report on the eligibility of 15 HUBZone companies and a
Review of the HUBZone Empowerment Contracting Program's Internal Controls.

I believe your recommendations are reasonable and I generally agree with them. Per your
recommendation, I will review and modify the plan developed by AAJHUBZone
Empowerment as necessary. Further, I will work closely with that office in meeting its
resource needs to implement the plan.

Again, I appreciate the opportunity to comment on your discussion draft. Should you
have any questions, please feel free to contact me at (202) 205-6610.




                     ---0........-­
                                                                                                                         Attachment 3

                                                  REPORT DISTRIBUTION


Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Government Contracting 

and Business Development ....................................................................................1 


Office of the Chief Financial Officer 

Attention: Jeffrey Brown ........................................................................................ 1 


General Counsel ...................................................................................................... .3 


u.s. General Accounting Office .............................................................................. 1 

